                           AUDIT REPORT

Postal
Inspection Service Mail
Covers Program
   May 28, 2014




                  Report Number HR-AR-14-001
                                                                       HIGHLIGHTS

                                                                          May 28, 2014
                                        Postal Inspection Service Mail Covers Program
                                                          Report Number HR-AR-14-001
BACKGROUND:
In fiscal year 2013, the U.S. Postal           were approved without written
Inspection Service processed about             authorization and 13 percent were not
49,000 mail covers. A mail cover is an         adequately justified or reasonable
investigative tool used to record data         grounds were not transcribed
appearing on the outside of a mailpiece.       accurately. Also, 15 percent of the
Law enforcement agencies use this              inspectors who conducted
information to protect national security;                      mail covers did not have
locate fugitives; obtain evidence; or help     the required nondisclosure form on file.
identify property, proceeds, or assets
forfeitable under criminal law.                Further, the Postal Inspection Service
                                               provided evidence for only one periodic
A mail cover is justified when it will         review of the mail covers program over
further an investigation or provide            the past 3 fiscal years and did not have
evidence of a crime. The U.S. Postal           procedures to ensure annual reviews
Service is responsible for recording and       were performed as required. Finally, the
forwarding the data to the Postal              mail cover computer application did not
Inspection Service for further                 always provide accurate and reliable
processing. Postal Service and law             information because system controls did
enforcement officials must ensure              not ensure completeness, accuracy, and
compliance with privacy policies to            consistency of data. For example, we
protect the privacy of customers,              found 928 mail covers in active status
employees, and other individuals’              after the cover periods ended.
information.
                                               Insufficient controls could hinder the
Our objective was to determine whether         Postal Inspection Service’s ability to
the Postal Service and Postal Inspection       conduct effective investigations, lead to
Service are effectively and efficiently        public concerns over privacy of mail,
handling mail covers according to Postal       and harm the Postal Service’s brand.
Service and federal requirements.
                                               WHAT THE OIG RECOMMENDED:
WHAT THE OIG FOUND:                            We recommended management
Opportunities exist to improve controls        improve controls to ensure responsible
over the mail covers program. For              personnel process mail covers in a
example, responsible personnel did not         timely manner and conduct periodic
always handle and process mail cover           reviews of the mail covers program.
requests in a timely manner and                Also, we recommended management
documents relating to the covers were          implement system controls to ensure
not always returned to the program files       data integrity in the Postal Inspection
as required. Of the 196 external mail          Service mail cover application.
cover requests we reviewed, 21 percent         Link to review the entire report
May 28, 2014

MEMORANDUM FOR:             GUY J. COTTRELL
                            CHIEF POSTAL INSPECTOR

                            EDWARD F. PHELAN, JR.
                            VICE PRESIDENT, DELIVERY AND POST OFFICE
                            OPERATIONS

                            JOHN T. EDGAR
                            VICE PRESIDENT, INFORMATION TECHNOLOGY




FROM:                       Janet M. Sorensen
                            Deputy Assistant Inspector General
                             for Revenue and Business

SUBJECT:                    Audit Report – Postal Inspection Service Mail Covers
                            Program (Report Number HR-AR-14-001)

This report presents the results of our audit of the U.S. Postal Inspection Service's Mail
Covers Program (Project Number 13YG035HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, deputy
director, Human Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Postal Inspection Service Mail Covers Program                                                                      HR-AR-14-001




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Mail Cover Requests ....................................................................................................... 2

   Criminal Mail Covers.................................................................................................... 2

                                                               Case Files ..................................................... 3

   Processing Mail Covers at Post Offices ....................................................................... 4

   Program Reviews ........................................................................................................ 6

Mail Cover Application..................................................................................................... 6

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Mail Cover Deficiency Projections ............................................................. 11

Appendix C: Federal, State, and Local Mail Cover Requests ........................................ 12

Appendix D: Mail Cover Process ................................................................................... 14

Appendix E: Management’s Comments ........................................................................ 15
Postal Inspection Service Mail Covers Program                                                         HR-AR-14-001



Introduction

This report presents the results of our audit of the U.S. Postal Inspection Service Mail
Covers Program (Project Number 13YG035HR000). The objective of this self-initiated
audit was to determine whether the U.S. Postal Service and the Postal Inspection
Service are effectively and efficiently handling mail covers according to postal and
federal requirements.1 Specifically, we assessed controls over the processing of mail
covers.

In fiscal year (FY) 2013, the Postal Inspection Service reviewed and processed about
49,0002 mail covers. A mail cover is an investigative tool used to record data appearing
on the outside of a mailpiece. Agencies must demonstrate a reasonable basis for
requesting mail covers, send hard copies of their request forms to the Criminal
Investigative Service Center (CISC)3 for processing, and treat mail covers as restricted
and confidential. A mail cover should not be used as a routine investigative tool. The
requesting law enforcement agency must explain what law the subject of the mail cover
is violating and how the mail cover could further the investigation or provide evidence of
a crime. Mail covers are granted only when written requests to the Postal Inspection
Service meet all requirements.

The CISC reviews each request to ensure it contains enough information to stand alone
as full justification for the cover and fully complies with all applicable regulations. CISC
personnel manually enter the information from the hard copy request form into the
Inspection Service Integrated Information System's4 (ISIIS) electronic mail cover
application. Responsible officials review each request to ensure the mail cover is
completely justified and the request fully complies with all regulations. Once the CISC
approves the request, it forwards the request to the Postal Service to obtain the mail
cover data. The Postal Service is responsible for copying or recording the information
from the outside of the mailpiece and forwarding that information to the Postal
Inspection Service for further processing. The Postal Inspection Service must maintain
close control over and supervision of the mail cover. See Appendix A for additional
information about this audit.

Conclusion

Opportunities exist to improve controls over the mail covers program. For example,
responsible personnel did not always handle and process mail cover requests in a

1
  Title 39 Code of Federal Regulations § 233.3.
2
  Postal Inspection Service and external law enforcement officials requested 41,760 and 6,391 criminal mail covers,
respectively. In addition, about 1,000                            were processed by Postal Inspection Service
Headquarters. We did not analyze about 34,000 system-generated approved requests that did not require CISC
review. Our review focused on potential processing errors. Because these requests require no processing by CISC,
they pose less risk of errors.
3
  CISC is the primary administrator of the mail covers program with a national geographical area of responsibility.
4
  ISIIS is the official Postal Inspection Service data warehouse.

                                                          1
Postal Inspection Service Mail Covers Program                                                         HR-AR-14-001



timely manner and accountable documents, such as mail sender and addressee
information obtained during the mail cover period, were not always returned.
Of the 196 external criminal mail cover requests we reviewed, 21 percent were
approved without written authority and 13 percent were not adequately justified or
reasonable grounds were not transcribed accurately. Also, 15 percent of the inspectors
who conducted          did not have the required nondisclosure form on file. Further, the
Postal Inspection Service provided evidence of only one review of the mail covers
program over the past 3 fiscal years and did not have procedures to ensure annual
reviews were performed as required. Finally, the ISIIS mail cover application did not
always provide accurate and reliable information because system controls were not
sufficient to ensure completeness, accuracy, and consistency of mail cover data. For
example, we found 928 mail covers in active status even though their cover periods had
ended.

Insufficient controls over the mail covers program could hinder the Postal Inspection
Service’s ability to conduct effective investigations, lead to public concerns over privacy
of mail, and harm the Postal Service’s brand.

Mail Cover Requests

Responsible personnel did not always follow Postal Service requirements when
handling mail cover requests.

Criminal Mail Covers

We reviewed a statistical sample of 196 of 6,391 external law enforcement mail cover
requests5 and projected the results nationwide. See Appendix B for additional
information regarding our nationwide projection. In our statistical sample, we found:

   Of 196 requests, 41 (21 percent) were approved by individuals without written
    authority. According to policy,6 only the chief postal inspector, CISC manager, and
    their designees are authorized to order mail covers.

   Of 196 requests, 25 (13 percent) were not adequately justified or reasonable
    grounds for them were not transcribed accurately7 into the ISIIS mail cover
    application from the original requests. According to the ISM, reasonable grounds,
    which demonstrate the basis for the request must contain the following:

    o Information on what the subject is doing to violate the statute and an explanation
      of how the mail cover could further the investigation or provide evidence of a
      crime.



5
  The sample did not include internally generated criminal mail covers initiated by postal inspectors.
6
  Inspection Service Manual (ISM) Section 6-6.1.3, dated January 2012.
7
  External agencies send hard copy forms to CISC for processing. Specialists manually enter the information into the
mail cover application.

                                                          2
Postal Inspection Service Mail Covers Program                                                   HR-AR-14-001



    o Statement of the purpose of the mail cover and how the mail cover will provide
      evidence of a crime or assist in the investigation.

    Additionally, when an investigation requires a mail cover addressed to “all names at
    address,” the justification must include the following:

    o The necessity for recording all mail intended for delivery at the particular
      address.

    o Verification that the subject of the mail cover resides and receives mail at the
      address.

    o Verification that mail received for delivery at the address is intended for the
      subject of the mail cover.

   Of 196 requests the CISC received, 53 (27 percent) were not entered into the ISIIS
    mail cover application within 7 calendar days as required by Postal Inspection
    Service standard operating procedures (SOP).8

   Of 196 accountable documents for mail covers, 120 (61 percent) were not returned
    on time and maintained at the CISC. Postal Inspection Service Publication 55 Mail
    Cover Requests requires law enforcement agencies to return all accountable
    documents to the CISC within 60 days after the termination of the mail cover.

These deficiencies occurred because Postal Service officials did not have adequate
controls in place to ensure mail cover requests or accountable documents for mail
covers were handled properly.

                                                  Case Files

     case files did not always contain the required information.9 During FYs 2011 to
2013, the Postal Inspection Service processed about 800          . We randomly selected
and reviewed 60 (8 percent) case files and found:

   Nineteen of 60 (32 percent) case files did not include the dates inspectors visited the
    postal facilities where the mail cover was processed. Postal Inspection Service
                         Program SOP10 requires inspectors to maintain a log of site visits
    and conditions they observed.

   Six of 60 (10 percent) case files did not have the dates of the mail period coverage
    or mail counts. The Postal Inspection Service                       Program SOP
    requires postal inspectors to record this information.
8
  The SOP was prepared by CISC personnel who followed the procedures; however, the Postal Inspection Service
has not formally adopted the SOP.
9
        involve investigations for the protection of           .
10
   SOP was prepared by Postal Inspection Service Headquarters personnel for handling and processing
requests.

                                                      3
Postal Inspection Service Mail Covers Program                                                               HR-AR-14-001




      Of the 3911 inspectors associated with the        we reviewed, six (15 percent) did
       not have the required nondisclosure form on file. Postal officials are required to
       complete nondisclosure agreements to gain access to                            and
       maintain a record of the agreement for 50 years.12

      Nineteen of 60 (32 percent) case files were not returned to the Postal Inspection
       Service Office of Counsel within 60 days after the end of the mail cover period. The
       Postal Inspection                      Cover Program SOP requires inspectors to
       return accountable documents, case notes, and case closing reports within 30 days
       of the last mail cover closing period.

These deficiencies occurred because Postal Inspection Service officials did not have
sufficient controls in place to ensure personnel followed policy when processing
and to ensure case files contained the required information.

During our audit, officials began training postal inspectors on handling
        and completing the required nondisclosure agreement.

Processing Mail Covers at Post Offices

Post Office personnel did not always process mail cover requests in a timely manner.
We reviewed 14 mail covers at seven postal facilities CISC identified as being tardy in
processing mail covers. We confirmed that none of the 14 mail covers were processed
on time because officials did not have sufficient controls in place to ensure facility
personnel processed mail covers as required. Of the 14 mail covers we reviewed, six
were reissued13 about 3 months after the initial request and the remaining eight were
not reissued.14 For example, at the                                      officials could not
locate the original mail cover request and a new mail cover was reissued about 3
months later.

Officials at the seven postal facilities identified various reasons for the delays, but
the primary reasons were their focus on mail processing and employee turnover. See
Table 1 for a summary of the various reasons provided by postal officials for mail cover
delays.




11
     Inspectors are often assigned multiple mail cover cases.
12
13
   A mail cover is generally reissued at the request of a law enforcement agent when the Postal Service has not
responded to the original mail cover request.
14
   CISC officials identified 18 facilities that did not process mail covers timely. We reviewed seven of the 18 facilities.


                                                             4
     Postal Inspection Service Mail Covers Program                                                  HR-AR-14-001




                           Table 1. Summary of Reasons for Mail Cover Delays

          Facility           Focus on            Employee15            Limited     Insufficient       Number of
                               Mail               Turnover              Staff        Training         Mail Covers
                            Processing                                Resources                        Reviewed
                                X                       X                                                  6

                                   X                                                                          2

                                                        X                                 X                   1

                                                                          X                                   1


                                   X                                                                          1


                                   X                    X                                                     2

                                                        X                                 X                   1


Source: U.S. Postal Service Office of Inspector General (OIG) analysis.




     15
       When personnel changes occurred, mail cover requirements were not always conveyed to the replacement
     employees.

                                                               5
Postal Inspection Service Mail Covers Program                                                        HR-AR-14-001



Program Reviews

Responsible officials did not periodically review the criminal and      programs as
required. The Postal Inspection Service provided evidence for only one program review
over the past 3 fiscal years and did not have procedures to ensure annual reviews were
performed. Postal Inspection Service and federal policy16 require periodic reviews of the
criminal and        programs to ensure compliance with regulations and procedures,
including annual compliance self-assessments (CSA). CSAs contain general questions
regarding security of mail cover information and handling of interdiction mail covers.17
CSAs allow officials to comment and suggest program improvements. Periodic reviews
of the mail covers program help improve its quality and effectiveness.

Mail Cover Application

The ISIIS mail cover application did not always provide accurate and reliable
information. We found 92818 instances where the cover period ended but the application
continued to indicate the cover was in active status.19 Attempts to extend a mail cover
past its original end date resulted in an error message being displayed in the ISIIS,
indicating the mail cover had already been extended. Further, an error in the ISIIS mail
cover application sometimes allowed the same mail cover tracking number to be
assigned to different mail cover requests. This occurred because management did not
ensure system control features, such as integrity checks, were operating as designed.
Integrity checks should ensure completeness, accuracy, and consistency of mail cover
data.

Inadequate controls over the mail covers program could hinder the Postal Inspection
Service’s ability to conduct effective investigations, lead to public concern over mail
privacy, and harm the Postal Service’s brand. When mail cover data is inaccurate,
management might not have the reliable information they need to effectively manage
the program and ensure program compliance.

Recommendations

We recommend the chief postal inspector:

1. Improve controls to ensure responsible Postal Inspection Service personnel process
   mail covers as required.



16
   Postal Inspection Service Manual, dated January 2012.
17
   Interdiction mail covers are designed for an investigation involving a large volume of mail and that focuses on a
specific postal operation, as opposed to a specific sender or address.
18
   About 24,000 law enforcement mail cover requests were processed in FYs 2011 to 2013.
19
   The application was designed to automatically change the mail cover status 60 days from the end of the mail cover
period.

                                                         6
Postal Inspection Service Mail Covers Program                                 HR-AR-14-001



2. Establish procedures to ensure periodic reviews of criminal and          mail covers
   are conducted as required.

We recommend the vice president, Delivery and Post Office Operations, in coordination
with the chief postal inspector:

3. Improve controls to ensure Postal Service facility personnel process mail covers in a
   timely manner.

We recommend the chief postal inspector, in coordination with the vice president,
Information Technology:

4. Implement system controls to ensure data integrity in the Postal Inspection Service
   mail cover application.

Management’s Comments

Management agreed with the findings and recommendations in the report.

Regarding recommendation 1, management stated they have established controls to
provide mail cover training to all inspectors and restrict approval authority. They are
developing performance measures to ensure timely processing of mail cover requests.
Management is also developing controls to address the issue of outside agencies not
returning accountable documents. Management stated that they will review and revise
all SOPs and adopt them as practice. The target implementation date is
September 30, 2014.

Regarding recommendation 2, management stated they will establish procedures to
ensure they conduct periodic reviews, including CSAs, for both criminal and     mail
covers. The target implementation date is September 30, 2014.

For recommendation 3, management stated that Post Office Operations personnel put
activities regarding outstanding mail cover requests in the Delivery Unit Required
Activities Tracking database. Post Office Operations will provide Postal Inspection
Service personnel with access to the database, which will allow them to input activities
directly. Management also plans to implement new procedures to notify the local office
when a mail cover has been issued for the site. The target implementation date is
May 30, 2014.

Regarding recommendation 4, management will ensure data integrity by reviewing and
modifying existing scripts and routines and verifying that automated processes are
functioning properly. The target implementation is June 30, 2015.

See Appendix E for management’s comments, in their entirety.




                                                7
Postal Inspection Service Mail Covers Program                              HR-AR-14-001




Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                8
Postal Inspection Service Mail Covers Program                                  HR-AR-14-001




                             Appendix A: Additional Information

Background

In FY 2013, the Postal Inspection Service processed about 49,000 mail covers. A mail
cover is an investigative tool the Postal Inspection Service uses to record data
appearing on the outside of a mailpiece. Agencies must demonstrate reasonable
grounds for mail cover requests. The chief postal inspector is in charge of all aspects of
the mail cover process. The Postal Inspection Service must closely control and
supervise mail covers according to applicable federal laws and regulations. In FY 2013,
the                   were the top two federal agencies requesting mail covers and the
           Police Department was the top local agency. See Appendix C for federal,
state, and local mail cover requests.

The CISC is the primary administrator of the mail covers program. The CISC must
ensure all federal and Postal Service requirements are met before approving a mail
cover request. The Postal Service Office of General Counsel handles and processes
       requests. Requesting law enforcement agencies must treat mail covers as
restricted and confidential information. They must demonstrate reasonable grounds for
requesting and using the mail cover. The requesting law enforcement agency must
explain what law the subject of the mail cover is violating and how the mail cover could
further the investigation or provide evidence of a crime. Mail covers are authorized only
when all requirements are met in a written request to the Postal Inspection Service. The
CISC reviews each request to ensure it contains enough information to stand alone as
full justification for the cover and fully complies with all regulation requirements. See
Appendix D for a flowchart of the mail cover process from initial request to file closure.

Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service and Postal Inspection
Service are effectively and efficiently handling mail covers according to Postal Service
and federal requirements.

The scope of the audit included fieldwork at Postal Inspection Service Headquarters
and the CISC. We also conducted fieldwork at Postal Service facilities identified by
CISC personnel as having delayed mail cover processing. We analyzed the ISIIS mail
cover application to assess the accuracy and validity of the data and reports. We
assessed procedures for processing, administering, and safeguarding criminal and
      information. We excluded mail covers the Postal Inspection Service requested
because they were directly entered into the mail cover application by the inspectors and
there is less risk of processing errors by CISC personnel. We reviewed applicable mail
cover policies and procedures, including federal requirements and training records.

We conducted this performance audit from September 2013 through May 2014 in
accordance with generally accepted government auditing standards and included such


                                                9
Postal Inspection Service Mail Covers Program                                   HR-AR-14-001



tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on April 21, 2014, and included their
comments where appropriate.

We assessed the reliability of mail cover records by reviewing existing information about
the data and the system that produced them, and interviewed agency officials
knowledgeable about the data. We identified some errors and irregularities within the
mail cover application. We performed additional procedures to obtain confidence in the
reliability of data used. Based on the results, we concluded that the data were
sufficiently reliable for the purposes of this review.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit
in the past 3 years.




                                                10
Postal Inspection Service Mail Covers Program                                  HR-AR-14-001



                      Appendix B: Mail Cover Deficiency Projections

Responsible personnel did not always handle mail covers according to Postal Service
requirements. We analyzed 196 randomly selected external law enforcement agency
criminal mail cover requests and identified compliance deficiencies related to each.

To determine nationwide projections of these deficiencies, we:

   Identified compliance deficiencies at the CISC in processing criminal mail covers.

   Verified deficiencies through discussions with the CISC manager.

   Projected each type of deficiency based on a universe of 6,391 mail covers and
    used a 95 percent confidence interval with no more than 7 percent precision.

Based on our analysis, we project mail cover deficiencies nationwide as follows:

   Twenty-one percent of mail covers were approved by individuals without written
    authority.

   Thirteen percent of mail covers did not have the required justification or were not
    transcribed accurately.

   Twenty-seven percent of mail cover requests the CISC received were not entered
    into the ISIIS mail cover application within 7 calendar days as required.

   Sixty-one percent of accountable documents for mail covers were not returned on
    time and maintained at the CISC as required.




                                                11
  Postal Inspection Service Mail Covers Program                              HR-AR-14-001




                 Appendix C: Federal, State, and Local Mail Cover Requests


                                                     Federal Agencies
 Number
     of
Mail Cover
Requests




          FY 2011             2,124          1,281        920     379        519
          FY 2012             1,961          1,140        817     508        286
          FY 2013             1,323          1,025        758     469         81

   Source: Postal Inspection Service CISC.




                                                     12
    Postal Inspection Service Mail Covers Program                                                HR-AR-14-001




                                                              State and Local Agencies




 Number
     of
Mail Cover
Requests




                                 Division                                                          Treasury
                                    of        Department    Office of                County       Department         County
                   Police        Criminal         of        Attorney      Police     Sheriff’s                       Sheriff's     Bureau of
                 Department      Justice      Corrections   General     Department    Office                          Office     Investigations
  FY 2011           43              33            21            0           0           3              0         5      0               2
  FY 2012            83              0            17           42          29          25             19         0      0               5
  FY 2013           153              0             0            2           0          11              0        20     16             15

    Source: Postal Inspection Service CISC.




                                                                            13
    Postal Inspection Service Mail Covers Program                                       HR-AR-14-001



                                      Appendix D: Mail Cover Process


     External LEA submits an MC
       request in writing, postal
          inspector submits
            electronically



              CISC specialist reviews               Facility manager instructs the   CISC specialist
                   information                                         to bring to    closes out file
                                                       him/her, the mail of the
                                                     targeted address or person

If information is not sufficient,
   the specialist contacts the
requester to obtain additional                         Facility manager records      Closed files are
          information                                addresses and mails copies      consolidated at
                                                    to postal inspector or to CISC    the end of the
                                                        if for an external LEA             year

       If information is sufficient
      CISC specialist transcribes
     LEA MC request information
     into the ISIIS MC application                     Postal inspector              Closed files are
                                                    retains MC while the               stored at the
                                                      investigation is in            Federal Records
                                                          progress                     Center for 8
     CISC specialist submits the
                                                                                      years and then
     MC request to the supervisor
                                                                                        destroyed


        CISC supervisor reviews                     CISC specialist mails the MC
      information and approves or                    information to the external
       sends back to specialist for                             LEA
               correction


      CISC specialist sends a MC                    The requesting agency must
      packet to the postal facility                   return all materials to the
                                                     CISC within 60 days of MC
                                                                closing


    LEA - Law enforcement agency.
    MC - Mail cover.

    Source: OIG analysis.




                                                         14
Postal Inspection Service Mail Covers Program                  HR-AR-14-001




                           Appendix E: Management’s Comments




                                                15
Postal Inspection Service Mail Covers Program        HR-AR-14-001




                                                16
Postal Inspection Service Mail Covers Program        HR-AR-14-001




                                                17
